    U.S. Department of the Interior
    Office of Inspector General




         EVALUATION REPORT


          YEAR 2000 READINESS OF
    AUTOMATED INFORMATION SYSTEMS AT
     THE BUREAU OF LAND MANAGEMENT

                 REPORT NO. 99-I-231
                   FEBRUARY 1999
,
                                                                     A-IN-BLM-001-98-R


             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                  Washington, DC 20240



                                                           FE@ 1 2 1999


                           EVALUATION REPORT

Memorandum

To:        Director, Bureau of Land Management

From:      Robert J. Williams
           Assistant Inspector

Subject:   Evaluation Report on Year 2000 Readiness of Automated Information Systems
           at the Bureau of Land Management (No. 99-I-23 1)

                                 INTRODUCTION
This report presents the results ofour evaluation of year 2000 (Y2K) readiness of automated
information systems at the Bureau of Land Management. The objective of our review was
to determine whether the Bureau (1) inventoried its automated information systems and
identified those systems that were mission critical and were not Y2K compliant;
(2) developed auditable cost estimates for renovating systems to be Y2K compliant;
(3) identified, by name, individuals responsible for ensuring that the Bureau is Y2K
compliant; (4) ensured that responsible individuals’ personnel performance evaluation plans
included critical elements related to identifying and remedying Y2K problems; (5) developed
a credible plan that included milestones and a critical path to ensure that the Bureau is Y2K
compliant; and (6) developed a contingency plan that would address the failure of any part
of the systems not being Y2K ready. We also reviewed the Bureau’s progress in
inventorying automated information systems components, including computer software and
hardware; telecommunications systems; facilities; and data exchanges between the Bureau
and other Department of the Interior agencies or external entities for Y2K problems. This
review was conducted at the request of the Department of the Interior’s Chief Information
Officer to assist the Information Officer in monitoring the progress of Departmental agencies
in ensuring Y2K readiness, implementing Y2K compliant systems, and validating the
accuracy of the information reported by the Departmental agencies to the Chief Information
Officer.
BACKGROUND

The “Y2K problem” is the term used to describe the potential failure of information
technology systems, applications, and hardware related to the change to the year 2000. Many
computer systems that use two digits to keep track of the date will, on January 1, 2000,
recognize “double zero” not as 2000 but as 1900. This could cause computer systems to stop
running or to start generating erroneous data. The problem hasbeen recognized as nationally
significant by the President in Executive Order 13073, issued in February 1998. The
Secretary of the Interior, in a December 1997 memorandum, stated that the Y2K problem
was critical to the Department in meeting its mission and that resolution of the problem was
one of his highest priorities. Further, Office of Management and Budget Memorandum
98-02, “Progress Reports on Fixing Year 2000 Difficulties,” issued on January 20, 1998,
requires all Federal executive branch agencies to ensure that Federal Government systems
do not fail because of the change to the year 2000 and to have all systems, applications, and
hardware renovated by September 1998; validated by January 1999; and implemented (that
is,“fixes to all systems--both mission critical and non-mission critical”) by March 3 1, 1999.
The Office of Management and Budget states in Memorandum 98-02 that it is to provide
“information to the Congress and the public as part of its [Office of Management and
Budget’s] quarterly summary reports on agency progress . . . [and] to report on the status of
agency validation and contingency planning efforts and on the progress in fixing _ _ .
equipment that is date sensitive.”

The Department has developed the “Department of the Interior Year 2000 Management
Plan,” which focuses on the resolution of the Y2K problem and provides an overall strategy
for managing Departmental mission-critical systems and infrastructure. The Department has
a multitiered approach to managing the Y2K problem that includes a top tier, which
comprises the Secretary of the Interior; the Information Technology Steering Committee,
which consists of the Chief of Staff and the Assistant Secretaries; and the Chief Information
Officer, who is responsible for the Department’s Y2K issues. This tier, which represents
senior-level Departmental managers, provides the Y2K project’s direction and resources and
ensures accurate reporting to external organizations, such as the Office of Management and
Budget and the Congress. A DepartmentwideY2K project team, which reports to the Chief
Information Officer and comprises representatives from each agency and the Office of the
Secretary, is tasked with developing the Department’s Year2000 Management Plan, refining
inventory data on the Department’s mission-critical and information technology portfolio
systems,’ and monitoring and reporting on the progress of each conversion. In addition, a
Y2K Embedded Microchip’Coordinators Team has been established to inventory and


‘The portfolio is an inventory listing of 13 crosscuttmg or sensltlve systems that are receiving attention at the
Secretarial level.

‘Embedded microchips are “integrated circuits (miniature circuit boards)” that control “electronic devices,”
which include “elevators, heating, ventilation and air conditioning (HVAC), water and gas flow controllers;
aircraft navigational systems; and . . medical equipment” and office devices such as telephones, facsimile
machines, pagers, and cellular telephones. (Department of the Interior’s Office of Managing Risk and Public
Safety “Year 2000 Embedded Microchip Hazards” [Web site])

                                                        2
monitor embedded microchip technology Y2K problems. The team is led by the Office of
Managing Risk and Public Safety and comprises representatives of the eight Departmental
agencies, the Denver Administrative Service Center, and various Departmental offices.

The Department’s August 1998 “Quarterly Progress Report,” which was submitted to the
Office of Management and Budget, reported that the Department had 91 mission-critical
systems, of which the Bureau had 13 systems (see Appendix 1). The Bureau has a project
management team that comprises aY2K executive who is the Acting Assistant Director for
Business and Fiscal Resources; a Y2K coordinator; Y2K managers at the Washington office,
the 12 state offices, and the 6 centers;3 and individual project managers for mission-critical
systems, telecommunications, and embedded microchip technology efforts.

SCOPE OF EVALUATION

To accomplish our objective, we reviewed the documentation available that supported the
Bureau’s information submitted to the Department’s Chief Information Officer for the
August 1998 “Quarterly Progress Report.” We performed our evaluation during June
through September 1998 at the Bureau’s OffIce of Information Resources Management
Office, located in Washington, D.C., and the National Information Resources Management
Center, located in Denver, Colorado. We interviewed personnel responsible for project
coordination to identify the Bureau’s plans and progress. We also interviewed, either in
person, by telephone, or by electronic mail, personnel involved in various aspects ofthe Y2K
project, including coordination, compliance identification, software remediation, and project
management.

The evaluation was conducted in accordance with the “Quality Standards for Inspections,”
issued by the President’s Council on Integrity and Efficiency, and included such tests and
inspection procedures considered necessary to accomplish the objective. Our conclusions
on the status of the progress made by the Bureau in addressing and remediating Y2K
problems were based on reviews of documentation maintained by the Bureau’s Information
Resources Management, state, program, and center offices and on discussions with the
various Y2K coordinators throughout the Bureau and with individuals performing
remediation or replacement of noncompliant applications or hardware. As specifically
agreed to in our discussions with the Department’s Chief Information Officer, we did not
validate or certify that the Bureau’s infrastructure or systems wereY2K compliant.

                           RESULTS OF EVALUATION
Of the six areas that the Chief Information Officer requested us to evaluate, we concluded
that the Bureau of Land Management, at the end of our fieldwork, had completed actions on


‘The 12 state offices are the Alaska, Arizona, California. Colorado, Eastern States, Idaho, Montana, New
Mexico, Nevada, Oregon, Utah, and Wyoming State Offices. The six centers are the National Business Center,
the National Human Resources Center, the National Information Resource Management Center. the National
Interagency Fire Center, the National Applied Resource Sciences Center. and the National Training Center.
two areas but had not completed actions on four areas. Specifically, the Bureau had
designated responsible individuals and developed contingency plans for its mission-critical
systems. However, the Bureau had not reported all of its mission-critical systems to the
Department’s Chief Information Officer, developed auditable cost estimates, updated annual
personnel performance evaluation plans, and developed credible plans that included
milestones.

During our January 5,1999, exit conference with Bureau of Land Management Y2K officials
on the preliminary draft of this report, the officials provided updated documentation that
would resolve the conditions identified in the preliminary draft report. Based on the
documentation provided, we considered the actions on all six areas of the objective to be
completed, and we have changed the report accordingly. The specific actions taken by the
Bureau related to each area and other issues affecting the Bureau’s progress are discussed in
the paragraphs that follow.

Automated Information Systems Inventory

At the time of our review, the Bureau had not performed an inventory of all of its automated
information systems. According to the Department’s milestone dates, agencies were required
to have mission-critical systems inventoried and systems that were not compliant identified
by June 1997. Additionally, Memorandum 98-02 requires agencies to report on their total
number of mission-critical systems. In the Department’s August 1998 “Quarterly Progress
Report,” the Bureau reported that it had 13 mission-critical systems (see Appendix 1).
Although the Bureau identified and reported 13 mission-critical systems, a complete
inventory of its automated systems was not conducted and reported because the Bureau only
inventoried and reported on its Bureauwide systems. We found that the Bureau had at least
11 additional systems which were critical to the Bureau’s mission (see Appendix 2). For
example, Oregon State Office Y2K project management identified eight mission-critical
systems, of which three were related to the Bureau’s mission of managing forests and
wildlife habitat. Thus, there was a risk that all mission-critical systems had not been
identified.

During the January 5, 1999, exit conference, Bureau Y2K officials provided documentation
that resolved the identification of systems. While we believe that the mission-critical
systems identified in Appendix 2 should have been reported to the Department as part of the
Bureau’s mission-critical systems, we also believe that the Bureau has adequately identified
and implemented procedures which should ensure Y2K compliancy for all of the Bureau’s
systems. Therefore, the Bureau has completed this action.

The Department’s Chief Information Officer requested that we determine the progress of the
Bureau in addressing the Y2K problem regarding telecommunications and embedded
microchips in information systems and facilities. We found, at the time of our review, that
the Bureau’s telecommunications coordinator had received inventory data from the 12 state
offices and the 6 centers and that the Bureau’s embedded microchip coordinator had received


                                             4
complete inventory data from 6 of the 12 state offices and the 6 centers to construct a
national database of mission-critical embedded microchip inventory data.

Auditable Cost Estimates

At the time of our review, we found that the cost estimates the Bureau reported to the
Department’s Chief Information Offker in the August 1998 “Quarterly Progress Report”
were unauditable. The Bureau had not identified any costs for remedying the Y2K problem
for seven of its mission-critical systems. Since these systems were to be repaired or
redesigned, we believe that there should have been costs associated with these actions. The
Bureau reported total estimated costs of $250,000 to correctY2K problems in the six other
mission-critical systems. However, the Bureau could not provide documentation to support
its cost estimates for correcting the Y2K problems for these six systems. Therefore, the cost
estimates were not supported or auditable.

In addition, the Bureau may have underestimated the costs to correct Y2K problems in
embedded microchip technology. The Bureau reported costs of $400,000 to correct
embedded microchip technology Y2K problems to the Department’s Chief Information
Officer. However, we found that the estimated costs to correct embedded microchip
technology in the Nevada State Office were estimated at more than $540,000 and that, at the
time of our review, only 6 of the 12 state offices and all 6 of the centers had completed
inventories of embedded microchips.

During the January 5,1999, exit conference, Bureau Y2K officials provided documentation
that supported cost estimates for remedying the Bureau’s mission-critical systems and
correcting Y2K problems in its embedded microchip technology. Therefore, the Bureau has
completed this action.

Designation of Responsible Individuals

We found that the Bureau had specifically designated, by name, the Y2K executive, the
Bureau Y2K coordinator,. Y2K managers in each of the Bureau’s 12 state offices and
6 centers, and Y2K coordinators for embedded microchips and telecommunications.
Therefore, the Bureau has completed this action.

Annual Personnel Performance Evaluation Plans
The Secretary of the Interior’s December 1997 memorandum required that “a critical
performance element for identifying and remedying” theY2K problem be included as part
of each responsible official’s annual performance evaluation plan. Responsible officials are
defined in the memorandum as agency directors, agency Y2K executives, agency
information resources management coordinators, safety officials, and all others as
determined by the Y2K executives. In addition, the Bureau Director issued Instruction
Memorandum No. 98-127, “Year 2000 Critical Element for Employee Performance
Appraisals,” dated June 25,1998, which required that a Y2K critical element be included in

                                             5
the 1998 Employee Performance Plan and Results Reports for all responsible officials.
These individuals included deputy directors and assistant directors, state directors, field and
district office managers, center directors, state information resources management
coordinators, official Y2K points-of-contact, and state safety officials. At the time of our
review, we found that the Bureau Y2K coordinator and all responsible officials Ii-om the
Idaho and Nevada State Offices and the National Interagency Fire Center, as well as some
officials from the National Information Resources Management Center, had elements
addressing Y2K objectives in their annual Employee Performance Plan and Results Reports.
However, no documentation was provided to support that other Bureau Y2K responsible
officials, such as the Y2K executive, the embedded microchip coordinator, the
telecommunications coordinator, and the mission-critical systems coordinator, had such
elements in their annual Employee Performance Plan and Results Reports.

During the January 5,1999, exit conference, Bureau Y2K officials provided documentation
to support that the Bureau’s Y2K executive, embedded microchip coordinator,
telecommunications coordinator, and mission-critical systems coordinator had a critical
performance element for identifying and remedying the Y2K problem in their annual
performance evaluation plans. Therefore, the Bureau has completed this action.

Plan for Milestones
At the time of our review, we found that the Bureau had not developed credible plans which
included milestones with critical paths for the 13 mission-critical systems reported as part
of the Bureau’s Y2K project. A Y2K Master Plan, dated January 1998, existed for 8 of the
13 mission-critical systems that included tasks, start and finish dates, and statuses, but the
Plan did not contain procedures and milestones for each task to ensure that finish dates were
met. In addition, the Bureau developed a draft Y2K Management Plan4 dated July 1998 that
included milestones for completing various Y2K phases, such as assessment, renovation,
validation, and implementation, for its mission-critical systems, embedded microchip
technology, and telecommunications. However, the draA plan did not contain detailed steps
for ensuring Y2K compliance for each of the Bureau’s mission-critical systems. Further, the
Bureau had not developed credible plans for the other 11 mission-critical systems (see
section “Automated Information Systems Inventory”).

During the January 5, 1999 exit conference, BureauY2K officials provided documentation
to ensure that credible plans were developed for its mission-critical systems. In addition,
Bureau officials provided us a copy of an updated Y2K Management Plan dated October 19,
1998, which included steps to ensure that its systems, hardware, software,
telecommunications, embedded microchip technology, and data sharing arrangements would
be Y2K compliant by the milestone date. Further, Y2K project management stated that
certification documentation of Y2K compliancy for 11 of the Bureau’s 13 mission-critical
systems had been submitted to the Department’s Chief Information Officer. The Bureau


4The draft Y2K Management Plan provides guidance to Bureau management and staff for ensuring YZK
readiness.

                                               6
developed contingency plans for the other two mission-critical systems. Therefore, the
Bureau has completed this action.

Contingency Plans

We found that the Bureau had a draft contingency plan dated July 1998 for the Automated
Land and Mineral Record (ALMRS) and the Case Recordation and Mining Claims
Recordation systems. The plan addressed contingencies in the event that ALMRS is not
implemented by March 1999. The plan would require the Case Recordation and Mining
Claims Recordation systems, which would be retired upon implementation of ALMRS, to
continue operating. However, the hardware and the software to operate these systems need
to be repaired to be Y2K compliant. The Bureau did not have contingency plans for any
other mission-critical systems because the systems are scheduled to be compliant prior to
March 1999. Therefore, the Bureau has completed this action.

Other Issues
We found other issues that affect the Bureau’s readiness efforts which should be addressed
as follows:

        - Contract Language. Department of the Interior Acquisition Policy Release
1997-6, “Year 2000 Contract Specification,” issued in April 1997, requires appropriate
contract language to be included in all acquisitions that would pertain to Y2K compliance
issues. However, the Bureau’s contract for the ALMRS Modernization Project did not
contain an amendment that included the appropriate contract language required by the policy
release to ensure that the system would “either be year 2000 compliant as delivered or if
noncompliant at that time be upgraded to be year 2000 compliant at no additional cost to the
government.” The Bureau initiated action to amend the ALMRS contract that was to have
become effective beginning in fiscal year 1999.

         - Independent Verification and Validation. According to the Bureau’s Y2K
project management, independent verification and validation testing of mission-critical and
nonmission-critical systems are to be performed by an independent contractor. However, the
costs associated with acquiring a contractor to perform the independent verification and the
validation testing had not been estimated and reported at the time of our review (see section
“Auditable Cost Estimates”).

        - Data Exchange. The Department ofthe Interior and the Office ofManagement and
Budget required that an inventory of all data exchanges with outside parties be completed
by February 1, 1998, and that coordination with these parties to determine a transition plan
occur by March 1,1998. We found that the Bureau had identified its data exchange partners
and that the partners had been contacted by Y2K coordinators. The National Information
Resources Management Center had identified five interfaces with systems external to the
Bureau, and we verified that the inventory of data exchange partners was complete. The
interfaces were with the Department’s Minerals Management Service (three interfaces), the

                                             7
Department’s Office of Aircraft Services (one interface), and the Department of
Agriculture’s U.S. Forest Service (one interface). Bureau Y2K project management had
contacted these entities and determined the appropriate actions to take to ensure that the
exchanged data will process correctly after the year 2000.

Since this report does not contain any recommendations, a response is not required.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings,
actions taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the assistance of the Bureau of Land Management’s Y2K coordinator, the
Y2K coordinators at the state offices and centers, the mission-critical system coordinator,
and other Bureau personnel in the conduct of this evaluation.




                                             8
                                                                                        APPENDIX 1
                                                                                          Page 1 of 2

                    BUREAU OF LAND MANAGEMENT
                MISSION-CRITICAL SYSTEMS INVENTORY’

                                                                                       Estimated
      System Name or                                                                    Cost for
         Acronym                               Description                            Compliance
Initial Attack                    A system for tracking costs and                          0
  Management System               resources for wildlife suppression.

Automated Land and                A system that tracks original land                        0
  Minerals Reporting              title information and mine leasing
  System (ALMRS)                  activities.

Case Recordation                  A system that tracks land transfers,                  $42,000
                                  leases, and permitted uses of Federal
                                  lands. System will be replaced by
                                  ALMRS.

Mining Claims                     A system that tracks unpatented                           0
 Recordation                      mining claims, mill sites, and tunnels
                                  on Federal lands. System will be
                                  replaced by ALMRS.

Lease Management                  A system that accounts for rents and                      0
                                  fees associated with mineral leases
                                  and land use permits.

Aircraft Monitoring               A system that tracks aircraft parts                   42,000
  System                          inventory and aircraft used by the
                                  Bureau of Land Management.

Cadastral Survey System           A system that tracks survey                           42,000
                                  information related to public land
                                  surveys.

Inventory Data System             The system provides soil and                          40,000
                                  vegetative data for analyzing and
                                  determining the best use of Federal
                                  lands.


*Cost information is from the “Department of the Interior Year 2000 Management Plan,” issued in February
1998. All other information is from the Bureau’s Y2K Program Coordinator as of August 1998.

                                                   9
                                                                  APPENDIX 1
                                                                    Page 2 of 2

                                                                  Estimated
     System Name or                                                Cost for
        Acronym                        Description               Compliance
Library Reference System   The system catalogs central library        0
                           material.

Wildlife Inventory         A system that tracks wildlife           42,000
 System                    habitats, concentrating on
                           endangered species.

Master Name System         The system provides a central
                           repository of the Bureau’s customer
                           names and addresses.

Bond and Surety System     A system that tracks the status of
                           companies authorized to issue bonds
                           and sureties covering activities by
                           operators on Federal lands.

Wild Horse and Burro       A system that tracks the adoption       42.000
 System                    and compliancy of adoptees of wild
                           horses and burros.

   Total                                                         $250,000




                                         10
                                                                       APPENDIX 2



               BUREAU OF LAND MANAGEMENT
           MISSION-CRITICAL SYSTEMS INVENTORY
          NOT BEING REPORTED TO THE DEPARTMENT


          System Name and                           Organization Identifying
              Acronym                              Svstems as Mission Critical


Automated Casefile Tracking System           Oregon State Office

Micro*Storms (Forest Operations Unit
 Information)                                Oregon State Office

Procurement Information Network              Oregon State Office

Road Appraisal System                        Oregon State Office

Spotted Owl Database                         Oregon State Office

Transportation Information Management
  System                                     Oregon State Office

Timber Sale Information System               Oregon State Office

Timber Volume and Value System               Oregon State Office

Funds Accounting Control System
 (FACS)                                      Idaho State Office

National Automated Cache System
  (NACS)                                     National Interagency Fire Center

Automated Storage Conversion
  Distribution System (ASCADS)               National Interagency Fire Center




                                        11
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 2085300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 2359221
Offke of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Paci’c Region

U.S. Department of the Interior                      (671) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tarnuning, Guam 96911
 :
 m
      Toll Free Numbers:
 :     l-800-424-5081
 :     TDD l-800-354-0996
 :

      FT’S/Commercial Numbers:
:
:
  1    (202) 208-5300
 :.    TDD (202) 208-2420
 :
 :
 :
:m
       HOTLINE
      1849 C Street, N.W.
:
      Mail Stop 5341
3     Washington, D.C. 20240
z
:
:
:
:
:
:
:
:
L
*

  ...... rf
Y.‘
